                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

      Case Number: MOO010003                                                                        Page 1 of 2



            The complainant' (then president of a company that received an NSF SBIR grant), alleges that
            the subject2(th~enemployee of the company), who served as the PI of an NSF SBIR
            committed intellectual theft and made false statements. The allegation of intellectual theft is
            related to purported use of proprietary technology in research carried out subsequent to subject's
            departure (along with several other company employees) from the company4to which the SBIR
            was granted. The second allegation is related to statements made by the subject in the final
            report for the SBIR grant. The subject provided in the final report a summary of essentially
            "negative" results that the complainant states are at variance with a "positive" result documented
            in the subject's laboratory notebook. The complainant claims further that the "negative" results
            were emphasized in concert with the subject's concurrent business proposal to the company that
            would have transferred license to use proprietary technology to the subject as a principal of a
            new separate company.

            The first allegation concerns the use of proprietary technology by the subject (and possibly
            others) without permission or license. There is no allegation that the proprietary technology was
            used in NSF-funded research, nor is there a contention by the complainant that NSF funded the
            development of the proprietary technology used without permission by the subject or others.
            There is no NSF jurisdiction in this issue.

            The second issue is the allegation of false statements in the final project report of the SBIR grant.
            Two issues related to the allegation by the complainant are 1) Are the "negative" data referenced
            in the NSF final report falsified or fabricated? 2) Is there a biased selection of "negative" data
            within the NSF final report that is linked to the subject's proposal to acquire technology from the
            company put forth at the same time as the SBIR final report submission?

            The complainant states that the subject had already achieved a targeted goal listed in the SBIR
            proposal before the SBIR award was funded: this analytical value is deemed a "positive result."
            Although there is documentation in the laboratory notebook of the subject of experiments that
            support the existence of such a "positive" result, there are also notes for research work that


            ' Redacted
             Redacted
             Redacted
             Redacted


111                      I     Agent          I        Attorney        I       Supervisor       I            AIGI

        Sign 1 date

                                                                                                     OIG Form 2 (2102)
                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: MOO01003                                                                     Page 2 of 2



    support the "negative" results included in the SBIR final report. Examination of the notebook
    provides no evidence of fabrication or falsification of either the "positive" or the "negative"
    results. Variance in results is to be expected in multiple experiments, and the repeated
    experiments provided "negative" results rather than the isolated earlier "positive" result.
    Additionally, the result value targeted by the complainant is subsidiary to the main goal of the
    SBIR proposal work. There is no evidence that the subject willfully and purposefully selected
    an inferior experimental design in order to achieve a "negative" result, nor is there support for
    selective presentation of "negative results" within the SBIR final report. The second part of the
    complainant's allegation regarding a connection to the subject's business proposal is therefore
    moot.

    There is no basis for further inquiry, investigation, or action. Accordingly, this case is closed.
